WAIVER
SUPREME COURT OF THE UNITED STATES
No. 20-761
Austin Joseph Campbell, Petitioner,
v.
State of Missouri, Respondent.
I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of
certiorari unless one is requested by the Court.
Please enter my appearance as Counsel of Record for Respondent, State of
Missouri.
I certify that I am a member of the Bar of the Supreme Court of the United
States.
Signature:
Date:

December 22, 2020

Name:

D. John Sauer, Solicitor General
Office of the Attorney General
Supreme Court Building
P.O. Box 899
Jefferson City, MO 65102-0899
(573) 751-3321

A copy of this form has been served via U.S. Mail:
Elizabeth Unger Carlyle
Carlyle Parish LLC
6320 Brookside Plaza #516
Kansas City, MO 64113

